                              Office of the Inspector General


James M. Fornataro
Associate Commissioner
 for Acquisition and Grants

Assistant Inspector General
 for Audit

Costs Claimed by the State of Illinois on the Social Security Administration’s Contract
Number 600-95-22673


The enclosed final report presents the results of our audit of the costs claimed by the
State of Illinois on the Social Security Administration’s Contract Number (CN)
600-95-22673 (A-13-98-81032). The objective of our audit was to determine if costs
claimed by the State of Illinois for CN 600-95-22673 were allowable, allocable, and
reasonable in accordance with applicable Federal regulations and the terms of the
contract. This report also provides the Contracting Officer with cost information to
determine final value of the contract and to use in closing out the contract.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide your comments
within the next 60 days. If you wish to discuss the final report, please call me at
(410) 965-9700.




                                                Pamela J. Gardiner

Attachment

cc:

Yvette S. Jackson

Deputy Commissioner for Finance,

 Assessment and Management
Mr. Jim Donkin

Chief of Internal Audit

Illinois Department of Human Services

110 West Lawrence Street

Springfield, Illinois 62704


Dear Mr. Donkin:


The enclosed final report presents the results of our audit of the costs claimed by the

State of Illinois on the Social Security Administration’s Contract Number (CN)

600-95-22673 (A-13-98-81032). The objective of our audit was to determine if costs

claimed by the State of Illinois for CN 600-95-22673 were allowable, allocable, and

reasonable in accordance with applicable Federal regulations and the terms of the

contract.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments, please provide your comments

within the next 60 days. If you wish to discuss the final report, please call me at

(410) 965-9700

                                                 Sincerely,




                                                 Pamela J. Gardiner
                                                 Assistant Inspector General
                                                  for Audit

Enclosure

cc:

Yvette S. Jackson

Deputy Commissioner for Finance,

 Assessment and Management
Kathleen Fletcher
Senior Public Service Administrator
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




  COSTS CLAIMED BY THE STATE
    OF ILLINOIS ON THE SOCIAL
   SECURITY ADMINISTRATION’S
 CONTRACT NUMBER 600-95-22673

  September 1998   A-13-98-81032




AUDIT REPORT

                      E X E C U TI V E S U M M AR Y


OBJECTIVE

The objective of this audit was to determine if costs claimed by the State of Illinois for
Contract Number (CN) 600-95-22673 were allowable, allocable, and reasonable in
accordance with applicable Federal regulations and the terms of the contract. This
report also provides the Contracting Officer (CO) with cost information to determine the
final value of the contract and use in closing out the contract.

BACKGROUND

The Social Security Administration’s (SSA) Office of Acquisition and Grants (OAG)
requested an audit of costs incurred by the State of Illinois (CN 600-95-22673) for
Referral and Monitoring Agency (RMA) services to refer, assess, and monitor drug
addicts and alcoholics (DA&A) receiving Supplemental Security Income (SSI)
benefits.1 The contracted service period was from September 29, 1995, through
February 14, 1997. The costs claimed under CN 600-95-22673 are defined in terms of
the contract and the Office of Management and Budget (OMB) Circular A-87 and
A-122. These circulars provide criteria to establish allowability, allocability, and
reasonableness of costs claimed by State and nonprofit entities for Federal cost
reimbursement contracts. 2

We limited our audit to the review of costs incurred by the State of Illinois and its
subcontractor for CN 600-95-22673. We did not assess, and do not express an opinion
of the overall acceptability of the State of Illinois or its subcontractor’s internal controls
or accounting systems. We performed our audit work at the State of Illinois Department
of Alcohol and Substance Abuse and its subcontractor, Treatment Alternatives for
Special Clients (TASC), both located in Chicago, Illinois. We also performed work at
OAG at SSA Headquarters in Baltimore, Maryland. The field work was conducted from
September 1997 through November 1997.




������������������������������������

1
  SSI provides income maintenance payments to low-income individuals who are aged, blind, or disabled.

DA&As were determined disabled if they met income and other eligibility requirements, but this category

was eliminated in March 1996 by P.L.104-121. However, prior to the elimination of the DA&A category,

each State had an RMA contractor who referred, assessed, and monitored both title II and title XVI DA&A

recipients.

2
 OMB Circular A-87, ”Cost Principles for State, Local and Indian Tribal Governments;”
OMB Circular A-122, “Cost Principles for Nonprofit Organizations.”


                                                   i
RESULTS OF REVIEW

The State of Illinois claimed a total of $6,011,588 for CN 600-95-22673. Except for
$267,483 in questioned costs, we determined the claimed costs were allowable,
allocable, and reasonable in accordance with applicable Federal regulations and the
terms of the contract.

•   INAPPROPRIATELY CLAIMED STATE OF ILLINOIS COSTS ARE QUESTIONED

Labor and Related Fringe Benefits Costs

Equipment and Related Other Costs

•	 INAPPROPRIATELY CLAIMED SUBCONTRACTOR COSTS ARE ALSO
   QUESTIONED

Office Space Costs

Travel Costs

Office Supply Costs

Other Costs

Indirect Rates In Excess of Contract Specified Ceiling Rate

RECOMMENDATION

We recommend that SSA recover the questioned costs of $267,483 from the State of
Illinois on CN 600-95-22673.

SSA COMMENTS

SSA agreed with the intent of the recommendation. However, the Agency did not
provide comments but will consider the recommendation at the time of negotiation and
administrative close-out of the contract. (See Appendix C for the full text of SSA’s
comment.)

STATE OF ILLINOIS AND SUBCONTRACTOR COMMENTS

The State of Illinois and subcontractor did not concur with our questioning of certain
costs. In its response, the State of Illinois did not concur with our questioning of the
direct labor and related fringe benefits costs for the project coordinator and project
manager labor categories. While not commenting on the questioned subcontractor
indirect, travel and office supply costs, the State of Illinois did not concur with our
questioning of TASC’s claimed office space interest costs and did not fully concur with

                                            ii
our questioning of TASC’s claimed other costs. In addition, TASC did not concur with
our questioning of office space, travel, office supply, and indirect costs. The
subcontractor acknowledged that a portion of the “other costs” may be questioned, but
did not concur with the total amount of other costs questioned. (See Appendix D for the
full text of the State of Illinois and subcontractor comments.)

OIG RESPONSE

We considered the comments provided by the State of Illinois and subcontractor. As a
result of the additional support provided by the State of Illinois and subcontractor, we
accept the direct labor and related fringe benefits costs for the project coordinator labor
category and the costs related to the removal of a telephone system respectively.
These cost adjustments are reflected in our recommendation. However, we do not
agree with and have not made adjustments for all other nonconcurrences made by the
State of Illinois and subcontractor. All of the remaining nonconcurrences, pertain to
costs not compliant with applicable Federal regulations or the terms of the contract; or in
excess of an agreed upon ceiling rate. (See the explanatory notes in Appendix B for
detailed OIG responses to State of Illinois and subcontractor comments.)




                                            iii
                        T AB L E O F C O N T E N T S


                                                                                                                   Page

EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 3


     INAPPROPRIATELY CLAIMED STATE OF ILLINOIS COSTS

     ARE QUESTIONED ......................................................................................... 3


     �    Labor Costs and Related Fringe Benefit Costs........................................... 3

     �    Equipment and Related Other Costs .......................................................... 4


     INAPPROPRIATELY CLAIMED SUBCONTRACTOR COSTS

     ARE ALSO QUESTIONED............................................................................... 4


     �    Office Space Costs ..................................................................................... 4

     �    Travel Costs................................................................................................ 5

     �    Office Supply Costs .................................................................................... 5

     �    Other Costs................................................................................................. 5

     �    Indirect Rates In Excess of Contract Specified Ceiling Rate....................... 5


RECOMMENDATION ............................................................................................. 7


APPENDICES


APPENDIX A - Criteria for Claimed Costs

APPENDIX B - Schedules and Explanatory Notes for Claimed and Recommended
             Costs on Contract Number 600-95-22673

APPENDIX C - SSA Comments

APPENDIX D - State of Illinois and Subcontractor Comments

APPENDIX E - Major Contributors to This Report

APPENDIX F - SSA Organizational Chart
                           I N TR O D U C TI O N


OBJECTIVE

The objective of this audit was to determine if costs claimed by the State of Illinois for
CN 600-95-22673 were allowable, allocable, and reasonable in accordance with
applicable Federal regulations and the terms of the contract. This report also provides
the CO with cost information to determine the final value of the contract and use in
closing out the contract.

BACKGROUND

SSA’s OAG requested an audit of costs incurred by the State of Illinois’
CN 600-95-22673 for RMA services to refer, assess, and monitor DA&As receiving SSI
benefits. The contracted service period was from September 29, 1995, through
February 14, 1997.

The costs claimed under CN 600-95-22673 are defined in terms of the contract.
Additionally, OMB Circulars A-87 and A-122 provide criteria that establish allowability,
allocability, and reasonableness of costs claimed by State and nonprofit entities for
Federal cost reimbursement contracts. Criteria examples include payroll and
distribution; allocable cost; support of salaries and wages; compensation for personal
services; interest, fund raising, and investment management costs, and travel costs.
(See Appendix A for a detailed explanation of the circulars’ criteria.)

SCOPE AND METHODOLOGY

We limited our audit to the review of costs incurred by the State of Illinois and its
subcontractor for CN 600-95-22673. We did not assess, and do not express an opinion
of the overall acceptability of the State of Illinois or its subcontractor’s internal controls
or accounting systems. Therefore, we assessed control risk as “high” and expanded
our substantive tests, which our audit reflects and which provides a reasonable basis for
our conclusions.

We did review, on a limited basis, the contractor’s and subcontractor’s internal controls.
In doing so, we assessed control risk and determined the extent of substantive testing.
We also examined, on a test basis, evidence supporting the amounts claimed;
inspected disclosures in the data; reviewed records; assessed the accounting principles
used and significant estimates made by the contractor; and evaluated the overall data
and records presentation.




                                              1

To evaluate claimed costs, we used OMB Circulars A-87 and A-122, plus the terms and
conditions of the contract. Costs that did not meet the requirements of these circulars
and contract were questioned for SSA’s use in determining the final value of the
contract and closing it out.

Work was performed at the State of Illinois Department of Alcohol and Substance
Abuse and its subcontractor, TASC, both located in Chicago, Illinois. We also
performed work at OAG at SSA Headquarters in Baltimore, Maryland. The field work
was conducted from September 1997 through November 1997. Our audit was
conducted in accordance with generally accepted government auditing standards.




                                           2

                  R E S U L T S O F R E V I E W


Except for the questioned costs discussed below, we determined the costs claimed by
the State of Illinois on CN 600-95-22673 were allowable, allocable, and reasonable in
accordance with applicable Federal regulations and the terms of the contract.

We questioned whether $267,483 of the costs were allowable, allocable, and
reasonable (See Table 1 which summarizes the questioned costs items).

            Table 1 - Schedule of Questioned Costs
                    Questioned Cost Item              Questioned Costs

                 State of Illinois Costs:
                                      Labor Costs
               $ 14,900
                                  Fringe Benefits
                  4,068
                            Equipment & Related

                                      Other Costs
                  5,390
                   Total State of Illinois Costs                 $ 24,358

                 Subcontractor Costs:
                                 Office Space                    $ 110,447
                                        Travel                       2,203
                               Office Supplies                      11,773
                                  Other Costs                        1,100
                                Indirect Costs                     117,602
                   Total Subcontractor Costs                     $ 243,125

                TOTAL QUESTIONED COSTS                           $267,483



INAPPROPRIATELY CLAIMED STATE OF ILLINOIS COSTS ARE
QUESTIONED

We question $24,358 of the State of Illinois claimed costs because the costs are not in
accordance with the terms of the contract and/or applicable Federal regulations. Details
of the questioned costs are discussed below.

Labor Costs and Related Fringe Benefit Costs

We questioned $14,900 of the labor costs claimed by the State of Illinois because
there was insufficient documentation of employee time per section B-10(b) of
OMB Circular A-87. Likewise, the fringe benefits associated with the unsubstantiated
labor costs ($4,068) are also questioned. Rather than questioning the full amount of
labor costs as unsupported, we determined a reasonable amount of direct labor costs,



                                                 3

by relying on the best available documentation of actual employee time.3 We analyzed
time charges to determine a reasonable number of employee hours that were allocable
to CN 600-95-22673. We then applied the actual labor rate to our recommended
number of labor hours to determine the recommended labor costs. The difference
between the claimed labor costs and the recommended labor costs is the amount
we questioned. Likewise, we applied the State of Illinois’ fringe benefit rate of
27.30 percent to determine the related recommended fringe benefit costs.

Equipment and Related Other Costs

The State of Illinois billed SSA $5,390 for computer equipment, software, and delivery
charges that were not allocable to this contract. The State of Illinois identified this error
but, as of January 15, 1998, had not reimbursed SSA for the erroneous billing.
Therefore, we question these costs because the costs have not been reimbursed and
do not meet the criteria of allocability as described under OMB Circular A-87
section C-3.

INAPPROPRIATELY CLAIMED SUBCONTRACTOR COSTS
ARE ALSO QUESTIONED

We question $243,125 of the subcontractor’s claimed costs because the costs were not
in accordance with the terms of the contract and/or applicable Federal regulations.
Details of the questioned subcontractor costs are discussed below.

Office Space Costs

The subcontractor inappropriately charged SSA $110,447 in office space costs. TASC
claimed $27,992 in unallowable interest which is specifically excluded as an allowable
charge under Attachment B item 19 of OMB Circular A-122. TASC claimed $29,260 in
daily commuting parking costs as office space. The parking costs are not allowable and
reasonable for the following reasons.

First, parking costs are not provided for in the terms of the lease agreement which is the
basis for office space costs. Second, the parking costs are related to the employees’
daily commuting costs to their home-office. If the subcontractor agreed to reimburse
employees for home-office parking expenses, these items should have been considered
as employee compensation and reported on the employees’ wage statements. TASC
did not consider these costs employee compensation and did not include these costs on
the employees’ wage statements. Finally, the parking costs were not incurred as a part
of business related travel.




������������������������������������

3
 The State of Illinois partially documented SSA-related time charges for RMA services provided in

CN 600-95-22673.



                                                   4

We question whether these costs are allowable because they do not meet the criteria of
compensation as described in OMB Circular A-122 Attachment B item 6 or the criteria
for travel as described in OMB Circular A-122 section Attachment B item 50.

In addition, we questioned $53,195 in build-out/alteration costs claimed for alterations to
the leased space because they are unallowable as direct costs as described in
section B-5(b) of the contract.

Travel Costs

TASC claimed $2,203 of parking costs which were either not directly associated with
CN 600-95-22673 or considered personal expenses (incurred as part of the employees’
daily commuting costs to their home-office). Travel expenses not associated with
SSA-related activities are unallowable per section A-2 and A-4 of OMB Circular A-122.
As discussed earlier, home-office parking expenses were not considered employee
compensation and were not incurred as a part of business related travel. Similarly, we
question whether these costs are allowable because the costs do not meet OMB’s
criteria for compensation or travel.

Office Supply Costs

The subcontractor inappropriately claimed $11,773 in office supply costs. TASC claimed

$11,773 for a telephone system that was not allocable to CN 600-95-22673. TASC

paid the remaining 48 months of a 60-month lease for a telephone system on

December 31, 1996, less than 2 months before the expiration of the RMA contract on

February 14, 1997. Furthermore, TASC removed the phone system on

January 6, 1997. TASC should have allocated these costs to all projects that the

phone system would benefit. Therefore, we question whether these costs are allowable

because they do not meet the criteria of allocability as described under

OMB Circular A-122 section A-4.


Other Costs

We question $1,100 of other costs for the re-installation of the telephone system that
was questioned above. Likewise, we question whether these costs are allowable
because the costs do not meet the criteria of allocability as described under
OMB Circular A-122 section A-4.

Indirect Rates in Excess of Contract Specified Ceiling Rate

The subcontractor inappropriately claimed $117,602 of indirect costs. We question
these costs because the subcontractor’s claimed indirect rate of 28.40 percent of
personnel costs is in excess of the agreed-to ceiling rate of 25 percent of claimed direct
labor and fringe benefits costs. TASC agreed to this ceiling rate in the “Best and Final
Offer” that was submitted by the State of Illinois and incorporated into the contract.




                                             5

To assist the CO in determining the final value and contract close-out of the above
contract, we have included detailed analyses of the auditor’s evaluation methodology in
determining recommended contract costs in Appendix B.




                                           6

                     R E C O M M E N D AT I O N 


RECOMMENDATION

We recommend that SSA recover the questioned costs of $267,483 from the State of
Illinois on CN 600-95-22673.

SSA COMMENTS

SSA agreed with the intent of the recommendation. However, the Agency did not
provide comments but will consider the recommendation at the time of negotiation and
administrative close-out of the contract. (See Appendix C for the full text of SSA’s
Comment.)

STATE OF ILLINOIS AND SUBCONTRACTOR COMMENTS

The State of Illinois and subcontractor did not concur with our questioning of certain
costs. In its response, the State of Illinois did not concur with our questioning of the
direct labor and related fringe benefits costs for the project coordinator and project
manager labor categories. While not commenting on the questioned subcontractor
indirect, travel and office supply costs, the State of Illinois did not concur with our
questioning of TASC’s claimed office space interest costs and did not fully concur with
our questioning of TASC’s claimed other costs. In addition, TASC did not concur with
our questioning of office space, travel, office supply and indirect costs. The
subcontractor acknowledged that a portion of the “other costs” may be questioned, but
did not concur with the total amount of other costs questioned. (See Appendix D for the
full text of the State of Illinois and subcontractor comments.)

OIG RESPONSE

We considered the comments provided by the State of Illinois and subcontractor. As a
result, of the additional support provided by the State of Illinois and subcontractor, we
accept the direct labor and related fringe benefits costs for the project coordinator labor
category and the costs related to the removal of a telephone system respectively.
These cost adjustments are reflected in our recommendation. However, we do not
agree with and have not made adjustments for all other nonconcurrences made by the
State of Illinois and subcontractor. All of the remaining nonconcurrences, pertain to
costs not compliant with applicable Federal regulations or terms of the contract; or in
excess of an agreed upon ceiling rate. (See the explanatory notes in Appendix B for
detailed OIG responses to State of Illinois and subcontractor comments.)




                                             7

APPENDICES

                                                                                 ����������




     C R I T E R I A F O R C L AI M E D C O S T S


The Office of Management and Budget (OMB) Circular A-87, “Cost Principles for State,
Local and Indian Tribal Governments,” dated May 4, 1995:

   •	 Section C-3 Allocable cost
      Cost is allocable to a particular cost objective if the goods or services involved
      are chargeable or assignable to such cost objective in accordance with relative
      benefits received.

   •	 Attachment B item 11(h) Support of salaries and wages
      Charges to Federal awards whether direct or indirect must be supported by
      personnel activity reports or equivalent documentation. They must reflect an
      after-the-fact distribution of the actual activity, must account for total activities for
      which the employee is compensated, and must coincide with one or more pay
      periods.

OMB Circular A-122, “Cost Principles for Nonprofit Organizations,” dated
June 27, 1980:

   •	 Section A-2 Allowability
      For costs to be allowable they must be reasonable for the performance of the
      award, conform to any limitations set forth in the award and be in accordance
      with generally accepted accounting principles.

   •	 Section A-3 Reasonable
      In order to be reasonable the costs shall be recognized as ordinary and
      necessary for the performance of the award.




                                              A-1

                                                                             APPENDIX A


   •	 Section A-4 Allocable
      Costs are allocable if incurred specifically for the award and are treated
      consistently with other costs incurred for the same purpose in like circumstances.

   •	 Attachment B item 6 Compensation for personal services
      Include all compensation paid or accrued for employee services rendered during
      the period of award.

   •	 Attachment B item 19 Interest, fund raising and investment management
      costs
      Interest on borrowed capital is unallowable.

   •	 Attachment B item 50 Travel costs
      Include the expenses for transportation, lodging, subsistence, and related items
      incurred by employees that are in travel status on official business of the
      organization.

Contract Number 600-95-22673:

   •	 Section B-5(b) items unallowable unless otherwise approved
      Special rearrangement or alteration of facilities is unallowable as direct costs.




                                           A-2

                                                                                     ����������




         Schedules and Explanatory Notes for

         Claimed and Recommended Costs on

            Contract Number 600-95-22673


We question $267,483 of the costs claimed by the State of Illinois and its subcontractor
Treatment Alternatives for Special Clients (TASC) on Contract Number (CN)
600-95-22673. This appendix provides the following details:

      •	 Tables 1 through 41 depicting claimed, recommended, and questioned costs by
         the State of Illinois and its subcontractor TASC; and

      •	 Explanatory notes detailing the auditor’s conclusions; contractor’s basis of
         claimed costs; auditor’s evaluation methodology used to determine the
         questioned and/or recommended costs; State of Illinois, subcontractor, and OIG
         comments and responses.

Table 1 - Costs Claimed by the State of Illinois on CN 600-95-22673
                                                                                       Reference
    Cost Element             Claimed       Recommended           Questioned             or Note

Direct Labor           $     48,336        $   33,436            $ 14,900            Note 1
Fringe Benefits              13,197             9,129               4,068            Note 2
Travel                        2,092             2,092                   0
Subcontractor
TASC                       5,914,958        5,671,833              243,125           Table 2
Consultant
(Iota Inc.)                  21,093             21,093                    0
Equipment                     8,087              4,550                3,537          Note 3
Other Costs                   3,825              1,972                1,853          Note 4


Total Costs             $6,011,588         $5,744,105            $ 267,483




������������������������������������

1
 The amounts in Tables 1 through 4 are rounded to the dollar. Percentages are rounded to the second
decimal place. Any differences are due to rounding.


                                                B-1

                                                                            APPENDIX B

Table 2- Costs Claimed by Subcontractor (TASC) on CN 600-95-22673

 Cost Element            Claimed         Recommended          Questioned         Note

Direct Labor         $ 2,311,392        $ 2,311,392         $	      0
Fringe Benefits          556,910            556,910                 0
Temp Services             70,686             70,686                 0
Travel                    86,691             84,488             2,203        Note 5
Telephone                123,308            123,308                 0
Postage                   59,042             59,042                 0
Office Supplies          178,546            166,773            11,773        Note 6
Office Space             569,019            458,572           110,447        Note 7
Equip. Maint.             42,347             42,347                 0
Equipment                472,573            472,573                 0
Consultants              434,117            434,117                 0
Conference                64,640             64,640                 0
Other Costs              111,010            109,910             1,100        Note 8
Subtotal:
Direct Costs         $ 5,080,281        $ 4,954,758         $ 125,523
Indirect Costs           834,677            717,075           117,602        Note 9


Total Costs          $ 5,914,958        $ 5,671,833         $ 243,125


Explanatory Notes:

1. 	State of Illinois - Direct Labor

   ���   Summary of Conclusions:

         We question $14,900 of direct labor costs because the State of Illinois did not
         keep adequate documentation to support the direct labor costs claimed. These
         costs are questioned under the Office of Management and Budget (OMB)
         Circular A-87 which states that “Salaries and Wages chargeable to more than
         one grant program or cost objective will be supported by appropriate time
         distribution records.”

   ���   Basis of Claimed Costs:

         The State of Illinois contends that OMB Circular A-87 does not require it to
         document time charges. As such, it determined direct labor costs on
         CN 600-95-22673 by applying estimated direct labor time percentages to the
         actual labor rates for the employees assigned to the contract.


                                            B-2

                                                                             APPENDIX B


c. Audit Evaluation:

   We used the limited actual documented time charges and developed
   recommended labor hours. Subsequently, we applied actual labor rates to the
   recommended labor hours for individuals assigned to the contract.

We do not agree with the State of Illinois’ assertion that OMB Circular A-87 did not
require it to keep documentation to support actual time spent by the individuals
assigned to the Social Security Administration’s (SSA) contract. It is our opinion that
OMB Circular A-87 required the State of Illinois to keep some form of documentation
that supports the actual time spent on the contract. Attachment B, item 11(h) of
OMB Circular A-87 indicates:

   “Where employees work on multiple activities or cost objectives, a distribution of
   their salaries or wages will be supported by personnel activity reports or
   equivalent document which meets the standards in subsection (5).” Subsection
   (5) states in part, that the personnel activity reports “. . . must reflect an after-the-
   fact distribution of the actual activity of each employee.” Subsection (5) also
   states that “Budget estimates or other distribution percentages determined before
   the services are performed do not qualify as support for charges to Federal
   awards.”

d. State of Illinois Comments:

   The State of Illinois did not agree with our questioning of direct labor costs
   associated with the project coordinator and the project manager labor categories.
   The State of Illinois provided signed certifications indicating the period of time the
   project coordinator worked full time on our contract as required by the
   OMB Circular A-87. The State of Illinois also provided signed timesheets
   indicating the level of effort spent on our contract by the project manager.

e. OIG Response:

   Based on our review of the additional information provided by the State of Illinois
   in supporting the claimed project coordinator direct labor costs, we have adjusted
   the direct labor costs of $36,862 contained in our draft report dated
   May 12, 1998, by $21,962. The remaining costs of $14,900 are questioned
   because of insufficient documentation of employee time per section B-10(b) of
   OMB Circular A-87.




                                          B-3

                                                                                APPENDIX B


2. State of Illinois - Fringe Benefits

   a. Summary of Conclusions:

         Because we question direct labor charges, we also question $4,068 of the
         related fringe benefits costs claimed by the State of Illinois.

   ���   Basis of Claimed Costs:

         The State of Illinois claimed fringe benefits costs that are equivalent to
         27.30 percent of direct labor costs.

   ���   Audit Evaluation:

         Direct labor is the allocation base for which fringe benefit rates are applied. To
         derive questioned fringe benefit costs, we applied the claimed fringe benefit rates
         of 27.30 percent to our questioned direct labor costs.

   ���   State of Illinois Comments:

         As indicated in the direct labor explanatory note, the State of Illinois disagreed
         with our questioning of direct labor costs associated with the project coordinator
         and project manager labor categories. Similarly, the State of Illinois disagreed
         with our questioning of the related fringe benefits.

   ���   OIG Response:

         Based on our review of the additional information provided by the State of Illinois,
         we have adjusted the questioned direct labor costs by $21,962. Similarly, we
         have adjusted the questioned fringe benefits costs by $5,996 by applying the
         claimed fringe benefit rate of 27.30 percent to the unquestioned direct labor costs
         of $21,962. The remaining fringe benefits costs of $4,068 are questioned
         because of insufficient documentation of employee time per section B-10(b) of
         OMB Circular A-87.

3. State of Illinois - Equipment Costs

   ���   Summary of Conclusions:

         We question equipment costs of $3,537 that were not allocable to this contract.
         The State of Illinois identified this error but had not reimbursed SSA for the
         erroneous billing as of January 15, 1998.




                                              B-4

                                                                                APPENDIX B


   ���   Basis of Claimed Costs:

         The claimed equipment costs were for actual expenditures for the purchase of
         two computers, one workstation, and two printers. However, the State of Illinois
         indicated that these costs were not allocable to this contract.

   c. Audit Evaluation:

         Because the State of Illinois acknowledged the erroneous billing and has not
         reimbursed SSA, we have questioned the $3,537 in equipment charges under
         OMB Circular A-87 section C-3 regarding allocability.

   d. 	 State of Illinois Comments:

         The State of Illinois concurred with our recommendation.

4. State of Illinois - Other Costs

   ���   Summary of Conclusions:

         We question other costs of $1,853 that are not allocable to this contract. The
         State of Illinois’ acknowledgment that it incorrectly billed these costs but has not
         reimbursed SSA for the erroneous billing.

   ���   Basis of Claimed Costs:

         The other direct costs were for actual expenditures for shipping charges and the
         purchase of computer software. However, the State of Illinois indicated that
         these costs were not allocable to this contract.

   c. Audit Evaluation:

         Because the State of Illinois acknowledged the erroneous billing and has not
         reimbursed SSA, we question the $1,853 in shipping and software charges under
         OMB Circular A-87 section C-3 regarding allocability.

   d. 	 State of Illinois Comments:

         The State of Illinois concurred with our recommendation.




                                              B-5

                                                                               APPENDIX B


5. Subcontractor TASC - Travel

     ���   Summary of Conclusions:

           The questioned travel costs of $2,203 represent parking and personal travel

           costs which were either not associated with this contract and therefore are

           unallowable per section A-4 of OMB Circular A-122 regarding allocable costs, or

           considered personal travel expenses, and are questioned because the costs do

           not meet the criteria of employee compensation as described in

           Attachment B item 6 of OMB Circular A-122.


     b. Basis of Claimed Costs:

           Claimed travel costs represent actual expenditures for local travel and parking.

     c. Audit Evaluation:

           As stated above in “Summary of Conclusions,” our questioned travel costs of
           $2,203 are based on the subcontractor’s claiming costs that were not in
           accordance with OMB Circular A-122 regarding either allocability or
           compensation.

     d. State of Illinois and TASC Comments:

           The State of Illinois did not respond to this recommendation. TASC however,
           disagreed with our recommendation and contends that these costs were
           reasonable, ordinary, necessary, allocable and allowable under
           OMB Circular A-122 sections A-3, A-4, and A-51 respectively.

     e. OIG Response:

           We disagree with TASC’s assertions. Based on our review, the travel costs were
           either not directly related to the contract or were personnel expenses which
           violated Section A-2 and A-4 of OMB Circular A-122 for non-related activities and
           Section B item 6 of OMB Circular A-122 for compensation.

��   Subcontractor TASC – Office Supplies

     ���   Summary of Conclusions:

           The questioned office supply costs of $11,773 represented TASC’s purchase of a
           telephone system that we have determined is not allocable to SSA’s contract.
           We, therefore question these costs in accordance with section A-4 of
           OMB Circular A-122 regarding allocable costs.


                                               B-6

                                                                         APPENDIX B


���   Basis of Claimed Costs:

      Claimed costs of $11,773 represent the actual expenditure to purchase the

      remaining lease costs plus a $1 purchase option for a Rolm 9200 telephone from

      Siemens Credit Corporation. The lease agreement was signed on

      January 31, 1996.


���   Audit Evaluation:

      Based on our review, the telephone lease was a 60-month lease of which

      approximately 48 months remained. TASC purchased the telephone system on

      December 31, 1996, less than 2 months before the contract’s expiration date of

      February 14, 1997. TASC on January 6, 1997, transferred the phone system

      from an office that benefited SSA’s contract to an office that did not.

      Therefore, we question these costs in accordance with the section A-4 of

      OMB CircularA-122 regarding allocable costs. It is our opinion that TASC should

      have charged these costs to projects that the phone system would benefit in the

      future.


���   State of Illinois and Subcontractor Comments:

      The State of Illinois did not comment on this recommendation. TASC however,
      disagreed with our recommendation and contends the: 1) equipment is
      reasonable and necessary for the operation of the program and would seem to
      meet the requirements of OMB Circular A-122 sections A-2 and A-3; 2) these
      costs were disclosed in the phase-down plan which TASC contends constitutes
      “an advance understanding;” and 3) OMB Circular A-122 section C-48 indicates
      that rental costs on unexpired leases are generally allowable when an award is
      terminated.

���   OIG Response:

      We disagree with TASC’s assertions. We question these costs because
      the costs do not meet the criteria for allowability as described under
      OMB Circular A-122 section A-4. Furthermore, we believe these costs meet the
      criteria under OMB Circular A-122 section C-47(a) which indicates that cost of
      items reasonably useable on the organization’s other work shall not be allowable
      unless the organization submits evidence that it would not retain such items at
      cost without sustaining a loss.




                                         B-7

                                                                              APPENDIX B


��   Subcontractor TASC - Office Space Costs

     a. Summary of Conclusions:

           We question a total of $110,447 of claimed office space costs. Our review of
           office space costs disclosed: 1) unallowable interest costs in the amount
           of $27,992, which have been questioned under OMB Circular A-122,
           Attachment B-19, Interest, which states “. . . costs incurred for interest on
           borrowed capital or temporary use of endowment funds, however represented,
           are unallowable;” 2) unallowable parking costs of $29,260 which are considered
           personal travel expenses because the expenses did not meet OMB’s criteria for
           employee compensation or business related travel; and 3) build-out costs of
           $53,195 on the leased space at the Jackson Boulevard Office, which we have
           determined to be unallowable per section B.5(b) of the contract. Also, the
           Contracting Officer (CO) indicated that he did not approve these costs.

     ���   Basis of Claimed Costs:

           Office space costs are comprised of such accounts as building lease, utilities,
           janitorial services, and a portion of the occupancy pool. TASC uses the
           occupancy pool to accumulate office space charges for its corporate office. The
           subcontractor allocates the corporate office costs contained in the occupancy
           pool to specific projects based on the percentage of the total employees
           assigned to a specific project. TASC also claimed personal parking expenses as
           office space costs.

     c. Audit Evaluation:

           Our questioned office space costs of $110,447 is detailed below:

                     Office Space:                     Questioned Amount

                     Occupancy Pool
                     $ 27,992
                     Parking
                              29,260
                     Build-out (Alterations)
              53,195

                     Total                              $110,447

           We question the interest costs of $27,992 included in the subcontractor’s
           occupancy pool that was allocated to SSA’s contract. Interest costs are
           specifically excluded as an allowable charge under OMB Circular A-122
           Attachment B item 19.




                                                B-8

                                                                       APPENDIX B

   TASC claimed $29,260 in daily commuting parking costs as office space. The
   parking costs are not allowable and reasonable for the following reasons. First,
   parking costs are not provided for in the terms of the lease agreement which is
   the basis for office space costs. Secondly, the parking costs are related to the
   employees’ daily commuting costs to their home-office. If the subcontractor
   agreed to reimburse employees for parking expenses, these items should have
   been considered as employee compensation and reported on the employees’
   wage statements. TASC did not consider these costs employee compensation
   and did not include these costs on the employees’ wage statements. Finally,
   parking costs were not incurred as part of business-related travel while the
   employee was in travel status.

   Questioned costs of $53,195 represent build-out/alteration charges at the leased
   space at 547 West Jackson Boulevard, Chicago, Illinois. We have questioned
   these costs as unallowable per section B.5(b) of the contract, which states that
   special rearrangement or alteration of facilities are unallowable as direct costs.
   Additionally, we have questioned these costs as unallowable based on our
   discussions with the CO on November 25, 1997, in which he indicated that he did
   not approve these build-out/alteration charges.

d. State of Illinois and Subcontractor Comments:

   Office Space – Interest Costs

   The State of Illinois and TASC did not concur with our questioning of office space
   interest costs. The State of Illinois and TASC contend that these costs were
   included as part of the original proposal and Best and Final Offer and as such
   constitutes “an advance understanding” between SSA and the State of Illinois
   regarding the acceptability of interest costs.

   Office Space – Build-out/Alteration Costs

   The State of Illinois did not comment on this recommendation. TASC however,

   disagreed with our questioning of the build-out/alteration costs. TASC contends

   that the renovation of the office space was anticipated and factored into the

   lease rate. TASC also contends that these costs were reasonable, ordinary,

   necessary, allocable, and allowable under OMB Circular A-122

   sections A-3, A-4, and A-39 respectively.


   Office Space – Parking Costs

   The State of Illinois did not comment on this recommendation. TASC however,
   disagreed with our questioning of office space parking costs. TASC’s contends
   that these costs should be accepted because it made reasonable efforts and



                                       B-9

           arrangements to reduce and control travel costs through the purchase of monthly
           parking rather than on a daily fee basis. Furthermore, TASC contends that these
           costs were bona fide business expenses which were reasonable, ordinary, and
           necessary as therefore allowable under OMB Circular A-122 section A-3.

     e. OIG Response:

           Office Space – Interest Costs

           We disagree with the State of Illinois and TASC’s assertion that inclusion of
           these costs in the original proposal and Best and Final Offer constitutes “an
           advance understanding” between SSA and the State of Illinois. It was correct of
           TASC to include the cost components of office space costs in its proposals.
           However, TASC should not have billed these costs to SSA since such costs are
           specifically excluded as an allowable charge under OMB Circular A-122,
           Attachment B item 19.

           Office Space – Build-out/Alteration

           We disagree with TASC’s assertions. We question these costs because the
           costs are specially identified as unallowable per Section B.5(b) of the contract
           unless approved by the CO. As indicated above, the CO did not approve these
           costs. Furthermore, based on our review of the lease agreement, these costs
           were not included as part of the base lease agreement.

           Office Space – Parking Costs

           We disagree with TASC’s assertions. Based on our review, the questioned
           parking costs were for daily commuting parking costs that TASC did not consider
           as compensation to employees. Therefore, we question these costs as
           unallowable because the costs do not meet the criteria of compensation as
           described in OMB Circular A-122, Attachment B item 6, or the criteria for travel
           as described in OMB Circular A-122, Attachment B item 50.

��   Subcontractor TASC - Other Costs

     ���   Summary of Conclusions:

           The questioned other costs of $1,100 represents TASC’s reinstallation of a
           telephone system that we questioned in Note 6. We determined these
           associated costs are not allocable to this contract. We, therefore, question these
           costs in accordance with section A-4 of OMB Circular A-122 regarding allocable
           costs.




                                                 B-10

                                                                                APPENDIX B


   ���   Basis of Claimed Costs:

         Claimed costs of $1,100 represent costs to reinstall a Rolm 9200 telephone
         system removed from TASC’s 5 East Van Buren Office to the
         16 West Van Buren location. The services were performed on January 6, 1997.

   ���   Audit Evaluation:

         As stated in Note 6, we determined that the Rolm 9200 telephone system was
         not allocable to this contract. Therefore, we question the reinstallation charges
         associated with the phone system in accordance with section A-4 of
         OMB Circular A-122 regarding allocable costs. It is our opinion that TASC
         should have charged these costs to projects that the phone system would benefit
         in the future.

   ���   State of Illinois and Subcontractor Comments:

         The State of Illinois disagreed, in part, with our recommendation. The State of
         Illinois and TASC contends that at least one-half of the questioned costs should
         be accepted because the costs relate to the removal of the telephone system
         which occurred due to the termination of the contract.

   ��    OIG Response:

         We agree with the State of Illinois and TASC’s comments and have reduced our
         original questioned other costs of $2,200 by $1,100. The remaining questioned
         other costs are questioned in accordance with section A-4 of OMB Circular A-122
         regarding allocable costs.

9. Subcontractor TASC - Indirect Costs

   a. Summary of Conclusions:

         The questioned costs of $117,602 represent the difference between the
         subcontractor’s claimed indirect costs of $834,677 and our recommended
         indirect costs of $717,075.

   ���   Basis of Claimed Costs:

         The subcontractor’s claimed indirect costs were derived by the application of an
         estimated indirect rate equivalent to 28.40 percent of direct labor, fringe benefits,
         and temporary services. TASC’s claimed indirect costs are detailed below:




                                              B-11

                                                                       APPENDIX B

              Table 3 - Indirect Costs Claimed by TASC
                                                 Claimed
                       Cost Element                Costs

               Direct Labor                        $2,311,392
               Fringe Benefits                        556,910
               Temp. Services                          70,686

               Subtotal (A)                        $2,938,988
               Indirect Rate (B)                      28.40%

               Indirect Costs

               (A) * (B)                           $834,673

               Rounding Difference                        4

               Indirect Costs Claimed              $834,677


c. Audit Evaluation:

   Our recommended indirect costs were determined by applying the ceiling indirect
   rate of 25 percent to claimed personnel costs (direct labor+fringe benefits).
   Based on our review of the “Best and Final Offer” submitted by the State of
   Illinois on July 25, 1995, which was incorporated into the final contract, TASC’s
   claimed indirect costs are “limited to 25 percent of personnel costs (salaries and
   fringe benefits).” Unlike TASC, we excluded Temporary Service costs of
   $70,686 from personnel costs because such personnel are not employees of
   TASC and do not receive fringe benefits. Our recommended indirect costs is
   detailed in the following chart:

            Table 4 - Recommended Indirect Costs for TASC
                                            Recommended
                      Cost Element              Costs

              Direct Labor                          $2,311,392
              Fringe Benefits                          556,910

              Subtotal (A)                          $2,868,302
              Ceiling Indirect Rate (B)                     25%

              Recommended Indirect Costs

              (A) * (B)                              $717,075





                                          B-12

                                                                            APPENDIX B

���   State of Illinois and Subcontractor Comments:

      The State of Illinois did not provide comments to this recommendation. TASC
      however, disagreed with our recommendation and contends that these costs
      should be allowable because it billed less than the budgeted indirect costs
      negotiated with the State of Illinois. Additionally, TASC contends that the
      claimed indirect costs do not exceed the final federally approved indirect rates for
      Fiscal Year 1995 and 1996.

��    OIG Response:

      We disagree with TASC’s assertions. These costs are questioned because
      TASC billed indirect costs in excess of the agreed ceiling rate of 25 percent of
      direct labor and fringe benefits costs. Table 4 above details our recommended
      indirect costs.




                                          B-13

                         ����������




S S A C O M M E N T S

                                     ����������




    S T AT E O F I L L I N O I S AN D

S U B C O N T R AC T O R C O M M E N T S

                                                                             ����������




 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Gale S. Stone, Director, Financial Management Audits


Shirley E. Todd, Audit Manager


Stephen G. Ondrish, Senior Auditor


Suzanne Valett, Auditor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-9135. Refer to Common Identification Number
A-13-98-81032.




                                            ���

                                    ����������




S S A O R G AN I Z AT I O N AL C H AR T

